C@OCKLE

E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1419

REB RUSSELL, Il,
Petitioner,
v.
STATE OF NEW JERSEY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1217 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of July, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

i NOTARY-State of Nebraska Zz f Z 2
RENEE J. GOSS 9. ( dud caur ‘

Affiant

 

 

My Comm. Exp. September 5, 2023

Notary Public
41044
